 UNIVERSITY OF CALIFORNIA, BERKELEY
        c/o Sponsored Projects Office
               336 Sproul Hall
       Berkeley, California 94720-5940

    National Science Foundation Award Number
                   EEC-9701568


                  Financial Audit
                         of
                Financial Schedules
                        and
           Independent Auditors’ Reports

For the Period October 1, 1997 to September 30, 2003




                                    M.D. Oppenheim & Company, P.C.
                                          Certified Public Accountants
                                      485 U.S. Highway 1, Building C
                                       Iselin, New Jersey 08830-4100
            XXXXXXXXXXXXXX

XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
                    UNIVERSITY OF CALIFORNIA, BERKELEY

                             TABLE OF CONTENTS


                                                                             Page

  ACRONYMS                                                                      1

  BACKGROUND                                                                    3

  AUDIT OBJECTIVES, SCOPE AND METHODOLOGY                                       3

  SUMMARY OF AUDIT RESULTS                                                      4

  EXIT CONFERENCE                                                               8

  INDEPENDENT AUDITORS’ REPORT ON FINANCIAL SCHEDULES                          10

  INDEPENDENT AUDITORS’ REPORT ON COMPLIANCE WITH LAWS   AND   REGULATIONS
     AND INTERNAL CONTROL OVER FINANCIAL REPORTING                             12

  FINDINGS AND RECOMMENDATIONS ON COMPLIANCE                                   14

  SCHEDULE A – SCHEDULE OF AWARD COSTS                                         21

  SCHEDULE B – SCHEDULE OF QUESTIONED COSTS                                    22

  SCHEDULE C – SCHEDULE OF COST SHARING                                        24

  SCHEDULE C-1 – SCHEDULE OF UNACCEPTABLE COST SHARING                         25

  SCHEDULE D – SUMMARY SCHEDULE OF AWARD AUDITED AND AUDIT RESULTS             27

  NOTES TO FINANCIAL SCHEDULES                                                 28

APPENDIX A – AWARDEE’S COMMENTS TO REPORT                                      30
              UNIVERSITY OF CALIFORNIA, BERKELEY

                                 Acronyms


Acronym   Explanation of Acronym

DACS      Division of Acquisition and Cost Support

DGA       Division of Grants and Agreements

FCTR      Federal Cash Transactions Report

GPM       Grant Policy Manual

MTDC      Modified Total Direct Costs

NSF       U.S. National Science Foundation

OIG       Office of Inspector General

OMB       Office of Management and Budget

PEER      Pacific Earthquake Engineering Research

UCAL      University of California




                                                     1
EXECUTIVE SUMMARY




                    2
                                       BACKGROUND

We audited the funds awarded by the National Science Foundation (NSF) to the University
of California (UCAL), Berkeley’s College of Engineering component unit Pacific
Earthquake Engineering Research (PEER) Center, under Cooperative Agreement Number
EEC-9701568 for the period October 1, 1997 to September 30, 2003.

The University of California is a public, state-supported educational institution. UCAL,
Berkeley, a component unit of the University of California, was awarded a cooperative
agreement from NSF for the PEER Center to reduce the risk of urban earthquakes through
the development and dissemination of a performance basis for earthquake engineering. The
mission of the PEER Center is to develop, validate and disseminate technology for the design
and construction of buildings and infrastructures to meet the diverse seismic performance
needs of owners and society.

NSF awarded Cooperative Agreement No. EEC-9701568 to UCAL, Berkeley-PEER Center
for the period October 1, 1997 to September 30, 2007. The ten-year agreement provides
funding in the amount of $16,510,667 with a required cost-sharing match of $16,000,000. As
of September 30, 2003, the end of our audit coverage period, the award was budgeted and
funded for $12,394,364 with a cost sharing requirement of $12,000,000. As of September
30, 2003, UCAL, Berkeley reported $10,437,233 in claimed costs and $12,438,419 in cost
sharing.

In order to carry out the requirements of the NSF award agreement, the PEER Center has
entered into subcontract agreements with eight Core Institutions (Universities) which are:
California Institute of Technology, Stanford University, University of California - Davis,
University of California - Irvine, University of California - Los Angeles, University of
California - San Diego, University of Southern California and the University of Washington.
These participating Universities along with UCAL, Berkeley provide the research, education
and outreach to accomplish the goals of this NSF award.

UCAL, Berkeley, as a Federal awardee, is required to follow the cost principles specified in
Office of Management and Budget (OMB) Circular A-21, Cost Principles for Educational
Institutions and Federal administrative requirements contained in OMB Circular A-110, Uniform
Administrative Requirements for Grants and Agreements with Institutions of Higher Education,
Hospitals, and Other Non-Profit Organizations.


                AUDIT OBJECTIVES, SCOPE AND METHODOLOGY


The objectives of our audit were to:

   1. Determine whether UCAL, Berkeley’s Schedule of Award Costs presents fairly, in all
      material respects, the costs claimed on the Federal Cash Transactions Reports
      (FCTR) – Federal Share of Net Disbursements and that the costs claimed including
      cost sharing are in conformity with Federal and National Science Foundation award
      requirements.

   2. Identify matters concerning instances of noncompliance with laws, regulations, and
      the provisions of the award agreement pertaining to the NSF award and weaknesses in
                                                                                           3
       the awardee’s internal control over financial reporting that could have a direct and
       material effect on the Schedule of Award Costs and UCAL, Berkeley’s ability to
       properly administer, account for, and monitor its NSF awards.

   3. Determine whether the costs incurred under subcontracts awarded by UCAL,
      Berkeley to Stanford University and the University of Washington were documented
      and allowable under the terms and conditions of the subcontract agreement, NSF and
      Federal regulations, based upon performing on-site audits.

We conducted our audit in accordance with auditing standards generally accepted in the
United States of America, Government Auditing Standards (June 2003 Revision) issued by
the Comptroller General of the United States, and the National Science Foundation Audit
Guide (September 1996), as applicable. Those standards and the National Science
Foundation Audit Guide require that we plan and perform the audit to obtain reasonable
assurance about whether the amounts claimed to the National Science Foundation as
presented in the Schedule of Award Costs (Schedule A), are free of material misstatement.
An audit includes examining, on a test basis, evidence supporting the amounts and
disclosures in the Schedule of Award Costs (Schedule A). An audit also includes assessing
the accounting principles used and significant estimates made by the UCAL, Berkeley, as
well as evaluating the overall financial schedule presentation. We believe that our audit
provides a reasonable basis for our opinion.

We used statistical and random sampling to test the costs claimed by the UCAL, Berkeley to
test for compliance with Federal award requirements. Based on this sampling plan,
questioned costs in this report may not represent total costs that may have been questioned
had all expenditures been tested. In addition, we made no attempt to project such costs to
total costs claimed, based on the relationship of costs tested to total costs.

                           SUMMARY OF AUDIT RESULTS

An audit was performed on the costs claimed in financial reports submitted to the National
Science Foundation (NSF) as well as cost sharing provided by UCAL, Berkeley on the NSF
award audited. These costs are shown in the Schedule of Award Costs (Schedule A) and are
summarized as follows:

   Award               Award              Claimed          Questioned        Unacceptable
   Number              Budget              Costs             Costs           Cost Sharing

EEC-9701568         $ 12,394,364        $ 10,437,233         $ 15,819

Cost Sharing        $ 12,000,000        $ 12,438,419                           $ 516,115


We determined that the costs claimed by UCAL, Berkeley are, in all material respects, fairly
stated and represent allowable, allocable, and reasonable costs, in accordance with the NSF
award agreement and federal requirements. We questioned $15,819 in claimed costs for
                                                                                            4
unallowable and undocumented travel and the related indirect costs and $516,115 in over-
reported and undocumented cost sharing. Additionally, no items came to our attention
regarding the allowability of costs claimed by Stanford University or University of
Washington as subcontractors on this award. However, we noted several compliance and
internal control weaknesses, one of which could have a significant impact on UCAL,
Berkeley’s ability to record, process, summarize and report financial data, and effectively
and efficiently administer the funds in a manner that is consistent with NSF and other federal
laws and regulations. If UCAL, Berkeley fails to address these compliance and internal
control weaknesses, similar problems may occur on other existing and future NSF awards.

The following is a brief description of the internal control and compliance findings that
resulted from our audit. For a complete discussion of these findings, refer to the Independent
Auditors’ Report on Compliance With Laws and Regulations and Internal Control Over
Financial Reporting.

   x The most serious internal control deficiency relates to a lack of adequate fiscal
      monitoring of subcontract costs. Specifically, during the period of October 1, 1997 to
      September 30, 2003, UCAL, Berkeley PEER Center personnel did not reconcile its
      subcontractor costs that they had recorded in progress logs with those recorded in the
      UCAL, Berkeley accounting system and reported to NSF. During our audit, we noted
      a difference of $1,740,316 at September 30, 2003 between subcontractor costs
      reflected in the PEER Center progress logs and the UCAL, Berkeley accounting
      system. The bulk of the discrepancy between the two data sources involved timing
      differences and incorrect classification of salaries and wages, fringe benefits,
      materials and supplies, and equipment costs as subcontract costs on the PEER Center
      progress logs. All of these costs were in support of UCAL, Berkeley professors
      working on the NSF award and were deemed allowable. However, neither PEER
      Center nor UCAL, Berkeley accounting personnel were aware of the difference,
      because there was no procedure in place to routinely reconcile costs reported by the
      two sources.

       Subcontract costs represents 86 percent of the total direct costs claimed on the NSF
       award. By federal requirements, the PEER Center personnel are responsible for
       monitoring the costs of 217 PEER Center subawards to ensure the allowability of the
       costs incurred and ensure that the programmatic objectives are accomplished. If
       monthly reconciliations are not performed, errors in subcontract payments and cost
       information submitted to NSF program and accounting offices could go undetected,
       raising questions as to the reliability and integrity of the amounts UCAL, Berkeley
       claims to NSF.

   x An internal control weakness was also identified in the cost sharing system that the
      PEER Center staff used to report cost sharing to NSF. The PEER Center records cost
      share that has been committed by various institutions, organizations and departmental
      units. The UCAL, Berkeley accounting system records the actual expenditure of cost
      sharing contributed by these other sources. The PEER Center does not use the

                                                                                            5
       UCAL, Berkeley accounting system records to ensure that it accurately records,
       documents, and reports actual cost sharing to NSF. As a result, cost sharing reported
       to NSF by the PEER Center of $12,438,419 incorrectly exceeded, by $277,488, the
       actual amount of cost sharing expended and reflected in the UCAL, Berkeley
       accounting system. Also, the PEER Center was unable to support $238,627 of salary
       costs claimed as cost share because the PEER Center staff could not document that
       the employees worked on the NSF award. The cumulative effect is that UCAL,
       Berkeley overstated cost sharing claimed to NSF by $516,115 as of September 30,
       2003.

   x Finally, a non-material compliance deficiency was identified. Travel costs and the
      related indirect costs amounting to $15,819 are questioned due to a lack of supporting
      documentation evidencing that the costs benefited the NSF award and also because
      the PEER Center utilized non-U.S. flag air carriers.

To address these internal control and compliance findings, we recommend that the NSF
Directors of the Division of Institution and Award Support (DIAS) and the Division of
Grants and Agreements (DGA) direct UCAL, Berkeley PEER Center personnel to establish
an adequate system and policies and procedures to effectively monitor its subcontractor costs
and accurately report those costs to NSF. Specifically, the UCAL, Berkeley PEER Center
should perform a monthly reconciliation between the subcontractor costs reflected in the
PEER Center progress logs and those recorded in the accounting records of UCAL,
Berkeley. Furthermore, NSF’s Division Directors of DIAS and DGA should ensure that the
PEER Center staff use the UCAL, Berkeley accounting system to record, document, and
report actual cost sharing expenses to NSF. Finally, NSF’s Division Directors of DIAS and
DGA should ensure that the PEER Center staff institute procedures to ensure that adequate
documentation is maintained to support travel costs claimed on NSF awards and that U.S.
flag air carriers are used in accordance with the NSF Grant Policy Manual (GPM). We
believe that if UCAL, Berkeley fails to address these weaknesses, similar problems may
occur on the remaining portion of this award and other existing and future awards.

In March 2005, UCAL, Berkeley officials provided their response to the audit findings and
recommendations made in this report and also provided additional documentation for $5,645
of travel costs and $3,789 of other direct charges, which reduced the original amount of
$26,685 questioned in the draft report to $15,819 including applicable adjustments for the
indirect costs. With respect to the internal control deficiency issue regarding fiscal
monitoring of subcontract costs, UCAL, Berkeley officials agree with the finding and
recommendation and stated that they have implemented the necessary reconciliation process
and corrective actions.

With respect to the internal control weakness regarding the cost sharing system used by the
PEER Center staff to report cost sharing to NSF, UCAL, Berkeley agrees with the need for
PEER to utilize the UCAL, Berkeley accounting system to track and report actual cost
sharing costs. However, UCAL, Berkeley disagrees that they could not support $238,627 of
salary costs claimed as cost share. They believe they provided adequate time reports which
satisfy after-the-fact time reporting and certification of effort. With respect to the non-
                                                                                           6
material compliance deficiency regarding travel costs, UCAL, Berkeley officials concur with
questioning $2,000 for use of non-U.S. flag air carriers and stated they subsequently revised
the unallowed charges in the general ledger.

We believe that UCAL, Berkeley’s comments are generally responsive to our
recommendations. However, we disagree with UCAL, Berkeley’s comments regarding the
support for the $238,627 of salary costs claimed as cost share. The actual percentage of time
spent on the project was not documented.

The findings and recommendations in the report cannot be resolved until NSF verifies that
the recommendations have been adequately addressed and the proposed corrective actions
have been satisfactorily implemented. UCAL, Berkeley’s response has been summarized
within the report and is included in its entirety in Appendix A.




                                                                                           7
                                 EXIT CONFERENCE

An exit conference was held on October 8, 2004 at the University of California, Berkeley
Finance Office located at 417 University Hall, Berkeley, California. Findings and
recommendations as well as other observations contained in this report were discussed with
those attending.

Representing the University of California, Berkeley:

     XXXXXXXXXXXXXXXXXXXXXX
     XXXXXXXXXXXXXXXXX
     XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
     XXXXXXXXXXXXXX
     XXXXXXXXXXXXXXXXXX
     XXXXXXXXXXXXXXXXXXXXXXXXXXX

Representing M.D. Oppenheim & Company, P.C.:

     XXXXXXXXXXXXXXXXXXX
     XXXXXXXXXXXXXXXX




                                                                                        8
FINDINGS AND RECOMMENDATIONS




                               9
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230

       INDEPENDENT AUDITORS’ REPORT ON FINANCIAL SCHEDULES

We have audited the costs claimed by the University of California, Berkeley to the National
Science Foundation (NSF) on the Federal Cash Transactions Reports (FCTR) – Federal Share of
Net Disbursements for the NSF award listed below. In addition, we also audited the amount of
cost sharing on the award. The Federal Cash Transactions Reports, as presented in the Schedule
of Award Costs (Schedule A) are the responsibility of the University of California, Berkeley’s
management. Our responsibility is to express an opinion on the Schedule of Award Costs
(Schedule A) based on our audit.

               Award
               Number                 Award Period                 Audit Period

            EEC-9701568            10/01/97-09/30/07            10/01/97-09/30/03

We conducted our audit in accordance with auditing standards generally accepted in the United
States, Government Auditing Standards (June 2003 Revision) issued by the Comptroller General
of the United States, and the National Science Foundation Audit Guide (September 1996), as
applicable. Those standards and the National Science Foundation Audit Guide require that we
plan and perform the audit to obtain reasonable assurance about whether the amounts claimed to
the National Science Foundation as presented in the Schedule of Award Costs (Schedule A), are
free of material misstatement. An audit includes examining, on a test basis, evidence supporting
the amounts and disclosures in the Schedule of Award Costs (Schedule A). An audit also
includes assessing the accounting principles used and significant estimates made by the
University of California, Berkeley’s management, as well as evaluating the overall financial
schedule presentation. We believe that our audit provides a reasonable basis for our opinion.

The accompanying financial schedules were prepared to comply with the requirements of the
National Science Foundation Audit Guide as described in the Notes to the Schedules, and are not
intended to be a complete presentation of financial position in conformity with accounting
principles generally accepted in the United States of America.




                                                                                             10
National Science Foundation
Office of Inspector General
Arlington, Virginia 22230


The Schedule of Questioned Costs (Schedule B) explains the claimed costs in the amount of
$15,819 that are questioned as to their allowability under the award agreement. Questioned costs
are (1) costs for which there is documentation that the recorded costs were expended in violation
of the laws, regulations or specific conditions of the award, (2) costs that require additional
support by the awardee, or (3) costs that require interpretation of allowability by the National
Science Foundation, Division of Institution and Award Support (DIAS). The final determination
as to whether such costs are allowable will be made by the National Science Foundation. The
ultimate outcome of this determination cannot presently be determined. Accordingly, no
adjustment has been made to costs claimed for any potential disallowance by NSF.

In our opinion, the Schedule of Award Costs (Schedule A) referred to above presents fairly, in all
material respects, the costs claimed on the Federal Cash Transactions Reports – Federal Share of
Net Disbursements and cost sharing claimed for the period October 1, 1997 to September 30,
2003 in conformity with the National Science Foundation Audit Guide, NSF Grant Policy
Manual, and the terms and conditions of the award and on the basis of accounting described in
the Notes to the Financial Schedules. This schedule is not intended to be a complete presentation
of financial position in conformity with accounting principles generally accepted in the United
States of America.

In accordance with Government Auditing Standards and the provisions of the National Science
Foundation Audit Guide, we have also issued a report dated October 8, 2004 on our tests of the
University of California, Berkeley’s compliance with certain provisions of laws, regulations, the
NSF award terms and conditions, and our consideration of the University of California,
Berkeley’s internal control over financial reporting. That report is an integral part of an audit
performed in accordance with Government Auditing Standards and should be read in conjunction
with this report in considering the results of our audit.

This report is intended solely for the information and use of the University of California,
Berkeley’s management, the National Science Foundation, the cognizant federal audit agency,
the Office of Management and Budget, and the Congress of the United States and is not intended
to be and should not be used by anyone other than these specified parties.




October 8, 2004




                                                                                               11
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230

    INDEPENDENT AUDITORS’ REPORT ON COMPLIANCE WITH LAWS AND
   REGULATIONS AND INTERNAL CONTROL OVER FINANCIAL REPORTING

We have audited the costs claimed as presented in the Schedule of Award Costs (Schedule A),
which summarizes the financial reports submitted by the University of California, Berkeley to
the National Science Foundation (NSF) and claimed cost sharing, for the award listed below and
have issued our report thereon dated October 8, 2004.

            Award Number                 Award Period                 Audit Period

            EEC-9701568                10/01/97-09/30/07           10/01/97-09/30/03


We conducted our audit in accordance with auditing standards generally accepted in the United
States of America, Government Auditing Standards (June 2003 Revision) issued by the
Comptroller General of the United States, and the National Science Foundation Audit Guide
(September 1996), as applicable. These standards and the National Science Foundation Audit
Guide require that we plan and perform the audit to obtain reasonable assurance about whether
the financial schedules are free of material misstatement.

                     COMPLIANCE WITH LAWS AND REGULATIONS

Compliance with applicable Federal laws, regulations, and the NSF award terms and conditions
is the responsibility of the University of California, Berkeley’s management. As part of
obtaining reasonable assurance about whether the financial schedule is free of material
misstatement, we performed tests of the University of California, Berkeley’s compliance with
certain provisions of laws, regulations, and the NSF award terms and conditions, noncompliance
with which could have a direct and material effect on the determination of the financial schedule
amounts. However, providing an opinion on compliance with those provisions was not an
objective of our audit, and accordingly, we do not express such an opinion.

The results of our tests disclosed instances of noncompliance that are required to be reported
under Government Auditing Standards and the National Science Foundation Audit Guide. See
Finding Nos. 1-3 presented in the Findings and Recommendation section of this report.



                                                                                              12
National Science Foundation
Office of Inspector General
Arlington, Virginia 22230

                  INTERNAL CONTROL OVER FINANCIAL REPORTING

In planning and performing our audit, we considered the University of California, Berkeley’s
internal control over financial reporting in order to determine our auditing procedures for the
purpose of expressing our opinion on the financial schedule and not to provide an opinion on the
internal control over financial reporting. However, we noted certain matters involving internal
control over financial reporting and its operation that we consider to be reportable conditions.
Reportable conditions involve matters coming to our attention relating to significant deficiencies
in the design or operation of the internal control over financial reporting that, in our judgment,
could adversely affect the University of California, Berkeley’s ability to record, process,
summarize and report financial data consistent with the assertions of management in the
financial schedule. The reportable conditions noted are described in Finding Nos. 1 and 2
presented in the Findings and Recommendations section of this report.

A material weakness is a reportable condition in which the design or operation of one or more of
the internal control components does not reduce to a relatively low level the risk that
misstatements in amounts that would be material in relation to the financial schedules being
audited may occur and not be detected within a timely period by employees in the normal course
of performing their assigned functions. Our consideration of the internal control over financial
reporting would not necessarily disclose all matters in the internal control that might be
reportable conditions and, accordingly, would not necessarily disclose all reportable conditions
that are also considered to be material weaknesses. However, we believe that the reportable
conditions noted above are also material weaknesses.

This report is intended solely for the information and use of the University of California,
Berkeley’s management, the National Science Foundation, the cognizant Federal Audit Agency,
the Office of Management and Budget, and the Congress of the United States and is not intended
to be and should not be used by anyone other than these specified parties.




October 8, 2004




                                                                                               13
                      UNIVERSITY OF CALIFORNIA, BERKELEY
                            Findings and Recommendations
                           NSF Award Number EEC-9701568
                       From October 1, 1997 to September 30, 2003


                                     Material Weakness

Finding No. 1 – Lack of Adequate Fiscal Monitoring of Subcontract Costs

UCAL, Berkeley lacks an adequate system and policies and procedures to monitor and report
its subcontract costs. OMB Circular A-110, Subpart C, Section .51 (a), requires recipients to
manage and monitor each project, program and sub award. In addition, Subpart C, Section
.21 (b) (1) requires accurate, current and complete disclosure of the financial results of each
federally-sponsored project or program.

UCAL, Berkeley PEER Center has 217 subawards, which represent 86 percent of the total
claimed costs on the NSF award. The UCAL, Berkeley accounting system cost data is
utilized in the preparation of Federal Cash Transactions Reports (FCTR) filed to report costs
to NSF, however, it only accounts for subcontractors’ cost in total by fund and by fiscal year.
The program coordinator at the PEER Center receives and approves for payment the
subcontractors’ monthly invoices, and records the invoice in an electronic spreadsheet called
a “progress log.” The progress logs are prepared for each subcontractors’ award and contain
the name of the subcontractor, the award amount and records of each payment. The PEER
Center staff monitors the cost of each subaward through the use of its progress logs, which
are the only detail available for tracking costs by each subcontractor award.

For the audit period of October 1, 1997 to September 30, 2003, UCAL, Berkeley PEER
Center personnel did not reconcile the subcontractor costs recorded in its progress logs with
those costs recorded in the UCAL, Berkeley accounting system. During our audit, we noted
a difference of $1,740,316 at September 30, 2003 between subcontractor costs reflected in
the progress logs summary report and the UCAL, Berkeley accounting system. Neither
PEER Center nor UCAL, Berkeley accounting personnel were aware of the difference,
because there was no procedure in place to routinely reconcile costs reported by the two
sources.

Subsequent to this discovery, UCAL, Berkeley performed a reconciliation of costs reported
by the two sources for the period October 1, 1997 to September 30, 2003, and provided
explanations for why the progress logs differed from accounting records. While UCAL,
Berkeley accounting data and the costs claimed on the FCTR, appear correct, the differing
amounts reported in the progress logs diminishes the effectiveness of PEER Center cost
monitoring. The progress logs incorrectly reflected a net $1,191,717 of subcontract costs
that were either erroneously omitted from the progress logs or were recorded and incurred
after September 30, 2003. The predominant portion of this reconciling amount was the costs
pertaining to subcontractors’ operations subsequent to September 30, 2003. Additionally, the
progress logs also incorrectly recorded $548,599 as subcontract costs that were salaries and
wages, fringe benefits, materials and supplies, equipment, etc. related to the NSF award and
                                                                                          14
PEER Center activities for professors employed at UCAL, Berkeley because the yearly
budgets submitted to NSF erroneously included these as subcontract costs. PEER Center
personnel should record subcontractor costs in the correct accounting period and budget
project costs assigned to UCAL, Berkeley professors in the appropriate NSF budget category
(i.e. salaries and wages, fringe benefits, materials and supplies, equipment, etc.) rather than
in the category of subcontract costs.

Absent a reconciliation, PEER Center personnel, who were in-charge of monitoring fiscal
operations related to each sub award, could not have known if progress logs were accurate or
if all payments were made and recorded in the UCAL, Berkeley accounting system. Without
this check, errors in subcontract payments and cost information submitted to NSF program
and accounting offices could go undetected raising questions as to the reliability and integrity
of the costs reported to NSF.

Recommendation No. 1

We recommend that NSF Division Directors for the Division of Institution and Award
Support (DIAS) and the Division of Grants and Agreements (DGA) require that UCAL,
Berkeley PEER Center personnel establish a system, policies and procedures to monitor its
subcontractor costs and accurately report those costs to NSF. Specifically, UCAL, Berkeley
PEER Center personnel should:

   a. perform a monthly reconciliation between subcontractors costs reflected in the PEER
      Center Progress Logs and subcontractors costs recorded in the UCAL, Berkeley
      accounting system.

   b. ensure that costs are recorded in the Progress Logs accurately and in the proper
      reporting time periods.

   c. budget project costs assigned to UCAL, Berkeley professors in the appropriate NSF
      budget category (i.e. salaries and wages, fringe benefits, materials and supplies,
      equipment, etc.) rather than in the category of subcontracts.

Awardee’s Response

UCAL, Berkeley officials in their March, 2005 response letter, state that they have reviewed
the findings and have implemented procedures to properly record subcontractor costs in the
Progress Logs and reconcile those costs to the UCAL, Berkeley accounting system as
discussed in the recommendation. UCAL, Berkeley agreed to report budgeted project costs
in the proper cost categories once the specific cost information is known.




                                                                                             15
Auditor’s Comment

Overall, UCAL, Berkeley’s comments appear responsive to the recommendation. However,
the finding cannot be resolved until all recommendations have been adequately addressed
and NSF verifies that the proposed corrective actions have been satisfactorily implemented.



                                     Material Weakness

Finding No. 2 – Cost Sharing Reporting Deficiencies

The PEER Center does not use the UCAL, Berkeley accounting system to ensure that it
effectively and accurately records, documents, and reports to NSF actual cost sharing
expenses, thereby raising questions as to the reliability and integrity of the $12,438,419 that
the PEER Center claimed as cost sharing. OMB Circular A-21, Section C.6.b states that all
costs should be supported by a cost allocation plan, in accordance with applicable Federal
cost accounting principles. OMB Circular A-110, Subpart C, Section .23 prescribes the
criteria and procedures for the allowability of cash contributions in satisfying cost sharing
and matching requirements. In addition, the NSF Grant Policy Manual, Section 333.6
requires cost sharing records be maintained for all project costs which are claimed as cost
sharing. Cost sharing for salary and wages require after-the-fact-certifications. Such records
are subject to audit. In addition, in cases where cost sharing commitments are $500,000 or
more, the Authorized Organizational Representative is required to report and certify the
actual cost sharing on an annual and cumulative basis. These cost sharing reports shall be
included as part of the annual progress and final project reports.

The PEER Center staff prepares and certifies the cost sharing reports submitted to NSF based
on records maintained at the PEER Center. The PEER Center records from the time of the
award through September 30, 2003 show cost share totaling $12,438,419. The NSF award
required $12,000,000 in cost sharing.

The PEER Center records cost share that has been committed by various institutions,
organizations and departmental units. The UCAL, Berkeley accounting system records the
actual cost sharing expenditures incurred on behalf of the NSF award. The PEER Center
does not use the UCAL, Berkeley accounting system to ensure that it accurately records,
documents, and reports actual cost sharing to NSF. As a result, cost sharing reported to NSF
by the PEER Center of $12,438,419 incorrectly exceeded, by $277,488, the actual amount of
cost sharing expended and reflected in the UCAL, Berkeley accounting system. Our tests, in
all material respects, substantiated the cost sharing amount of $12,160,931 recorded in the
UCAL, Berkeley accounting system, with the exception of $238,627 of salary costs claimed
as cost share for five employees. PEER Center personnel could not locate after-the fact
certification documents for these employees to evidence that they had worked on the NSF
award. Except for the five employees, all other time charges tested were adequately
certified. The cumulative effect is that UCAL, Berkeley overstated cost sharing claimed to
NSF by $516,115 as of September 30, 2003.



                                                                                            16
Recommendation No. 2

NSF’s Division Directors of DIAS and DGA should ensure that the PEER Center staff use
the UCAL, Berkeley accounting system to record, document, and report actual cost sharing
expenses to NSF. The PEER Center staff should institute procedures to utilize the UCAL,
Berkeley accounting system information to (a) track and report actual cost sharing funds
received and expended in its reports to NSF and (b) maintain all written after-the-fact
certifications to support salary and wage costs reported as cost share, as required by OMB
Circulars and the NSF Grant Policy Manual.

Awardee’s Response

UCAL, Berkeley officials, in their March, 2005 response letter, stated that they have
reviewed the findings and concur with the identification of the $277,488 difference in
committed and actual cost share received. UCAL, Berkeley officials believe this was the
result of a timing difference between the actual dates the transactions were recorded in the
UCAL, Berkeley general ledger and the dates the transactions were included in the original
cost sharing report. According to the officials, the accounting periods for the cost sharing
transactions have been revised and the cost sharing report to NSF has been corrected.

However, the UCAL, Berkeley officials disagree with the unsupported cost share for salaries
and wages. UCAL, Berkeley officials believe that they have provided the necessary after-
the-fact certified time reports depicting the actual time worked on the PEER project to the
auditors and that they maintain a cost allocation plan to ensure that costs are applied
appropriately.

Auditor’s Comment

The time reports cited by UCAL, Berkeley officials as adequate cost share support for five
employees in their audit response do not document actual time worked on the NSF award.
Instead, the time reports provided state the budgeted level of effort proposed for the
employees to work on the NSF award. The costs claimed for the five staff employees as cost
share should be based on after-the fact time certification documents that reflect actual time
worked. Because after-the fact time certification documents were not provided by UCAL,
Berkeley officials, the $238,627 of costs associated with the five staff employees remains
questioned.

The awardee’s comments concerning the timing differences of $277,488 of cost share
recorded in UCAL, Berkeley’s accounting system and the PEER Center records appear
responsive. However, the finding cannot be resolved until NSF verifies that all
recommendations have been adequately addressed and the proposed corrective actions have
been satisfactorily implemented.




                                                                                          17
                            Non-Material Compliance Deficiency

Finding No. 3- Inadequate Travel Documentation and Utilization of Non-U.S. Flag
Carriers

The PEER Center staff was not able to adequately support certain travel costs reported to
NSF and some of the travel costs incurred were for the use of a non-US Flag air carrier.
Therefore, we are questioning $21,464 of travel costs and applicable indirect costs related to
this finding. OMB Circular A-110, Subpart C, Section .21 prescribes the criteria and
procedures for the standards for financial management, which requires that accounting
records including cost accounting records be supported by source documentation. In
addition, the NSF Grant Policy Manual (GPM), Section 761.2 requires the use of United
States flag carriers for international travel under the following circumstances:

       x   A U.S-flag air carrier shall be used to a destination point or, in the absence of
            direct or through service, to the farthest interchange point on a usually traveled
            route;

       x   If a U.S-flag air carrier does not serve an origin or interchange point, a foreign-
            flag air carrier shall be used only to the nearest interchange point on a usually
            traveled route to connect with a U.S.-flag air carrier; or

       x   If a U.S.-flag air carrier involuntarily reroutes the traveler via a foreign-flag
            carrier, the foreign-flag air carrier may be used notwithstanding the availability of
            alternative U.S.-flag air carrier service.

In addition, GPM Section 761.3 allows the use of a foreign-flag carrier when the following
documented circumstances occur:

       x The traveler’s origin or destination airport, and use of U.S.-flag air carrier service
          would extend the time in travel status by at least 24 hours more than travel by a
          foreign-flag carrier; or

       x An interchange point, and use of U.S.-flag air carrier service would require the
          traveler to wait six hours or more to make connections at that point, or would
          extend the time in travel status by at least six hours more than travel by a foreign-
          flag air carrier.

From a sample of 61 travel transactions, the PEER Center staff was originally unable to
provide documentation to support 8 transactions representing $13,612 of travel costs. The
PEER Center staff relies on the UCAL, Berkeley accounting system to maintain the source
documentation for all transactions. The UCAL, Berkeley accounting system staff could not
locate the documentation for the 8 travel transactions. Complete source documentation
records are not maintained at the PEER Center.



                                                                                              18
Additionally, we questioned $2,000 for airline costs to an earthquake seminar in Yerevan,
Armenia. Although the purpose of the trip was NSF program related, the PEER staff
member utilized two foreign-flag air carriers for the trip. The trip originated and terminated
in San Francisco, California. The outbound flight was to Frankfurt, Germany on Lufthansa
Airlines, with the connecting flight to Armenia on Armenia Airlines. Since there are no U.S-
flag air carriers to Armenia, the trip to Armenia and from Armenia to the next interchange
point (Istanbul) was allowable. However, the continued routing of the flight back to San
Francisco through Istanbul and Athens on Lufthansa, with a several day stopover in Athens
to visit family is not acceptable. The intervening stop in Athens and the use of the foreign-
flag air carrier to facilitate the stopover for personal reasons added $2,000 of unallowable
costs to the trip, which had not been reimbursed by the employee at the time of the audit.

Recommendation No. 3

NSF’s Division Directors of DIAS and DGA should ensure that the PEER Center staff
institute procedures to ensure that adequate documentation is maintained to support travel
costs claimed on NSF awards and that US flag air carriers are used in accordance with the
NSF GPM.

Awardee’s Response

UCAL, Berkeley officials in their March, 2005 response letter, provided documentation to
support three of the eight missing travel items and the documentation to support all “other
direct” charges. UCAL, Berkeley officials state that they could not locate the missing
documentation for the five remaining questioned travel transactions that occurred prior to
June 2000, due to the replacement of their Legacy Financial System in mid-2000. UCAL,
Berkeley concurs with the non-U.S. flag carrier finding and has subsequently reversed the
unallowed charges for $2,000 from the general ledger.

Auditor’s Comment

The documentation provided for the three travel items and “other direct” charges was
adequate; therefore, we reduced the questioned travel costs (including applicable indirect
costs) from $21,464 to $15,819, and reduced the $3,789 in questioned “other direct” charges.
(See revised Schedule B). However, the finding cannot be resolved until NSF verifies that
all recommendations have been adequately addressed and the proposed corrective actions
have been satisfactorily implemented.




                                                                                           19
 FINANCIAL SCHEDULES AND
SUPPLEMENTAL INFORMATION




                           20
                                                       UNIVERSITY OF CALIFORNIA, BERKELEY
                                                    National Science Foundation Award No. EEC-9701568
                                                                  Schedule of Award Costs
                                                         From October 1, 1997 to September 30, 2003
                                                                          Interim
                                                                                                                Claimed                Questioned Costs
                                              Approved               (A)                                       Costs After                         Schedule
              Cost Category                    Budget           Claimed Costs        Reclassifications       Reclassification        Amount       Reference

     Direct costs:
      Salaries and wages                   XXXXXXXX             XXXXXXXX                $                    XXXXXXXX                $
      Fringe benefits                          XXXX                 XXXX                                         XXXX
      Permanent equipment                     XXXXX                XXXXX                                        XXXXX
      Travel                                  XXXXX                XXXXX                                        XXXXX                    11,513          B
      Participant support                     XXXXX                 XXXX                                         XXXX
     Other direct costs:
      Materials and supplies                   XXXXX                    XXXX                                       XXXX
      Publication costs                        XXXXX                   XXXXX                                      XXXXX
      Consultant services                       XXXX                    XXXX                                       XXXX
      Computer services                         XXXX                    XXXX                                       XXXX
      Subcontracts                            XXXXXX                  XXXXXX                                     XXXXXX
      Other                                  XXXXXXX                 XXXXXXX                                     XXXXXX
           Total direct costs                 11,801,453              9,964,441                  -0-              9,964,441              11,513
     Indirect costs (B)                          592,911               472,792                                     472,792                4,306          B
           Total                             $ 12,394,364        $ 10,437,233            $       -0-          $ 10,437,233           $ 15,819
     Cost sharing                            $ 12,000,000        $ 12,438,419            $       -0-          $ 12,438,419
     (A)       The total representing costs claimed agreed with the expenditures reported on the Federal Cash Transactions Report – Federal Share of Net
               Disbursements as of the quarter ended September 30, 2003. Claimed costs reported above are taken directly from the University of California,
               Berkeley’s books of accounts.
     (B)       Indirect costs are calculated on the modified total direct cost basis (MTDC), which is total direct costs less equipment, participant support costs
               and subcontract costs in excess of $25,000 per subcontract. The Awardee utilized predetermined MTDC indirect cost rates as follows:
                                                                                         Federally                      Rate Utilized




                                                                                                                                                                     Schedule A
                                                  Period                               Approved Rate                 in this NSF Award

                                October 1, 1997 to June 30, 1998                             49.9%                         37.4%
                                July 1, 1998 to June 30, 2002                                50.4%                         37.4%
                                July 1, 2002 to June 30, 2003                                51.5%                         37.8%
                                July 1, 2003 to September 30, 2003                           52.0%                         37.8%

     See accompanying notes to this financial schedule.
21
                                                                                    Schedule B

                      UNIVERSITY OF CALIFORNIA, BERKELEY
                   National Science Foundation Award No. EEC-9701568
                               Schedule of Questioned Costs
                        From October 1, 1997 to September 30, 2003

Travel:

   We are questioning $11,513 of travel costs as follows:

       x $2,000 relates to the utilization of a non-U.S. flag carrier. Specifically the item in
          question was for airline costs to an earthquake seminar in Yerevan, Armenia.
          Although the purpose of the trip was program related, the PEER staff member
          utilized two foreign-flag air carriers for the trip. The trip originated and
          terminated in San Francisco, California. The outbound flight was to Frankfurt,
          Germany on Lufthansa Airlines, with the connecting flight to Armenia on
          Armenia Airlines. Since there are no U.S-flag air carriers to Armenia, the trip to
          Armenia and from Armenia to the next interchange point (Istanbul) was
          allowable. However, the continued routing of the flight back to San Francisco
          through Istanbul and Athens on Lufthansa, with a several day stopover in Athens
          to visit family is not acceptable. The intervening stop in Athens added to the cost
          of the trip and the use of the foreign-flag air carrier to facilitate the stopover for
          personal reasons is not acceptable.

       x $9,513 of travel costs for five items which UCAL, Berkeley personnel could not
          provide supporting documentation to the travel cost in order to determine the
          propriety of the expenditure claimed to NSF.

Indirect Costs:

        We are questioning $4,306 of indirect costs related to the above $11,513 of direct
costs questioned, since UCAL, Berkeley claimed indirect costs to NSF based upon these
direct costs.

   The details to the above questioned costs are presented on page number 23.




                                                                                             22
                                                           UNIVERSITY OF CALIFORNIA, BERKELEY
                                                        National Science Foundation Award No. EEC-9701568
                                                                Schedule of Questioned Costs (Cont.)
                                                             From October 1, 1997 to September 30, 2003

                                                                   Journal/
 Budget          Account                                Posting    Voucher                          Questioned
Category         Number          Fund   Sub   Obj.       Date      Number           Payee Name       Amount                                Notes

  Travel          XXXX       XXXX       XX    XXX       XXXXX      XXXXX          XXXXXXXX             $ 2,000          Foreign-flag carrier/supporting documentation
  Travel          XXXX       XXXX       XX    XXX       XXXXX      XXXXX          XXXXXXXXXXX              435    (1)   Missing invoice/supporting documentation
  Travel          XXXX       XXXX       XX    XXX       XXXXX      XXXXX          XXXXXXX                1,036          Missing invoice/supporting documentation
  Travel          XXXX       XXXX       XX    XXX       XXXXX      XXXXX          XXXXXXX                2,487          Missing invoice/supporting documentation
  Travel          XXXX       XXXX       XX    XXX       XXXXX      XXXXX          XXXXXXX                2,299          Missing invoice/supporting documentation
  Travel          XXXX       XXXX       XX    XXX       XXXXX      XXXXX          XXXXXXX                1,963          Missing invoice/supporting documentation
  Travel          XXXX       XXXX       XX    XXX       XXXXX      XXXXX          XXXXXXX                1,728          Missing invoice/supporting documentation
  Travel          XXXX       XXXX       XX    XXX       XXXXX      XXXXX          XXXXXXX                  583    (1)   Missing invoice/supporting documentation
  Travel          XXXX       XXXX                       XXXXX     XXXXXXX         XXXXXXXXX              3,081    (1)   Missing invoice/supporting documentation

                                                                                                         15,612

Other direct XXXX            XXXX                       XXXXX     XXXXXXX         XXXXXXX                 3,789   (1)   Missing invoice for “other direct” cost

             Subtotal – total direct costs questioned                                                    19,401
             Less: costs subsequently documented (1)                                                    (7,888)

             Total direct costs questioned                                                               11,513

Plus applicable indirect costs:
                                                                  Questioned
                        Period                   Rate               Costs

                  10/01/97-06/30/02             37.40%              $ 11,513                              4,306

                                                                                                       $ 15,819




                                                                                                                                                                  Schedule B (Cont.)
       (A)      No payee information was available from UCAL, Berkeley. This wording was listed in the books of account for this transaction.

       (1)      Documentation provided with response to the draft audit report.
  23
                                                                                     Schedule C

                      UNIVERSITY OF CALIFORNIA, BERKELEY
                   National Science Foundation Award No. EEC-9701568
                                 Schedule of Cost Sharing
                        From October 1, 1997 to September 30, 2003


   Cost           Cost                             Cost Claimed
  Sharing        Sharing                               After          Unacceptable    Schedule
  Required       Claimed      Reclassifications   Reclassifications      Costs        Reference

$ 12,000,000   $ 12,438,419       $    -0-         $ 12,438,419        $ 516,115        C-1




The accompanying schedule referenced to explain unacceptable costs is an integral part of this
financial schedule.




                                                                                              24
                                                                               Schedule C-1

                     UNIVERSITY OF CALIFORNIA, BERKELEY
                  National Science Foundation Award No. EEC-9701568
                          Schedule of Unacceptable Cost Sharing
                       From October 1, 1997 to September 30, 2003

Unacceptable cost sharing of $516,115 is comprised of the following two components:

                             Explanation                                          Amount

   1. The cost sharing reported to NSF by the PEER Center for the period
      October 1, 1997 to September 30, 2003 totaled $12,438,419,
      however, the actual cost sharing provided per the books of account
      totaled $12,160,931, a difference of $277,488.                             $ 277,488

   2. Cost sharing salary costs for five staff of the PEER Center were
      allocated between cost sharing applicable to the PEER Center NSF
      award and non-award related time. Three staff was allocated to cost
      sharing at a rate of 50%, one staff at a rate of 20%, and one staff at
      various rates ranging from 5.3% to 50% during the audit period.
      Time and attendance records or a written, documented allocation
      plan was not maintained for any of these staff to support the
      allocation of costs. Per our conversation with UCAL, Berkeley and
      PEER Center staff, the allocation was based on an estimate of time
      spent. No diaries or other record of time actually spent was
      maintained. The salary, fringe benefit and indirect costs related to
      this totals $238,627.                                                        238,627(A)



              Total unacceptable cost sharing                                    $ 516,115



(A) See details on following page.




                                                                                        25
                                                       UNIVERSITY OF CALIFORNIA, BERKELEY
                                                    National Science Foundation Award No. EEC-9701568
                                                        Schedule of Unacceptable Cost Sharing (Cont.)
                                                         From October 1, 1997 to September 30, 2003

                                               07/01/99-06/30/00                 07/01/00-06/30/01                 07/01/01-06/30/02                 07/01/02-06/30/03
                                         Salaries                          Salaries                          Salaries                          Salaries
                                           and      Fringe     Indirect      and       Fringe    Indirect      and       Fringe    Indirect      and       Fringe    Indirect
           Employee           Total       Wages Benefits        Costs      Wages      Benefits    Costs      Wages      Benefits    Costs      Wages      Benefits    Costs

     XXXXXXXXXXX $ 163,516              XXXXX       XXXXX XXXXX XXXXX                 XXXXX XXXXX XXXXX                 XXXXX XXXXX XXXXX                 XXXXX XXXXX
     XXXXXXX
     XXXXXXXX        1,562                                                                                                                        XXX         XXX       XXX
     XXXXXXXXXXX    11,567                                                                                                                       XXXX         XXX       XXX
     XXXXX          53,048                  XXXX       XXX       XXXX       XXXX         XX        XXXX       XXXX        XXXX       XXXX
     XXXXXXXXXXX     8,934                                                 XXXXX      XXXXX        XXXX

          Totals           $ 238,627    XXXXX       XXXXX XXXXX XXXXX                 XXXXX XXXXX XXXXX                 XXXXX XXXXX XXXXX                 XXXXX XXXXX


     Notes:

     1.    No allocated cost sharing salaries and wages applicable to the NSF award were incurred during the periods October 1, 1997 through June 30, 1999 and July
           1, 2003 through September 30, 2003.

     2.    Fringe benefits are calculated utilizing the UCAL, Berkeley rates of 23% for the period July 1, 1999 through June 30, 2002 and 22% for the period July 1,
           2002 through June 30, 2003.

     3.    Indirect costs are calculated utilizing the negotiated rate agreements with the U.S. Department of Health and Human Services as follows:

                         Effective Period           Rate            Type

                        07/01/99-06/30/02          50.40%       Predetermined
                        07/01/02-06/30/03          51.50%       Predetermined




                                                                                                                                                                           Schedule C-1 (Cont.)
26
                                                                                         Schedule D

                      UNIVERSITY OF CALIFORNIA, BERKELEY
                   National Science Foundation Award No. EEC-9701568
                   Summary Schedule of Award Audited and Audit Results
                        From October 1, 1997 to September 30, 2003

Summary of Award Audited

                Award
                Number                 Award Period                    Audit Period

             EEC-9701568             10/01/97-09/30/07               10/01/97-09/30/03


Summary of Questioned and Unresolved Costs

 NSF Award                              Claimed         Questioned       Unresolved      Unsupported
  Number          Award Budget           Costs            Costs            Costs            Costs

EEC-9701568        $ 12,394,364      $ 10,437,233         $ 15,819         $   -0-           $   -0-

Summary of Questioned Costs by Explanation

                                             Questioned
                                               Cost           Internal Control        Noncompliance
                Condition                     Amount              Finding                Finding

Travel Costs – missing documentation
 and use of non-U.S. flag carrier            $15,819(A)                                      X


(A) Includes applicable portion of indirect costs.

Summary of Noncompliance and Internal Control Findings

                                       Noncompliance       Material,     Amount of        Amount of
                                         or Internal      Reportable     Questioned        Claimed
             Condition                    Control?        or Other?        Cost             Costs

xLack of adequate fiscal               Noncompliance
  monitoring of subcontract costs        and Internal     Material         $     -0-     $ 8,577,237
                                           Control

xCost sharing deficiencies             Noncompliance     Material         $     -0-     $ 12,438,419
                                         and Internal
                                           Control

xInadequate travel
  documentation and utilization of
  non-U.S. flag carrier                Noncompliance      Reportable       $ 15,819      $       245,260




                                                                                                    27
                      UNIVERSITY OF CALIFORNIA, BERKELEY
                   National Science Foundation Award No. EEC-9701568
                                Notes to Financial Schedules
                        From October 1, 1997 to September 30, 2003

1.   Summary of significant accounting policies:

       Accounting basis

       The accompanying financial schedules have been prepared in conformity with
       National Science Foundation (NSF) instructions. Schedules have been prepared from
       the reports submitted to NSF. The basis of accounting utilized in preparation of these
       reports differs from accounting principles generally accepted in the United States of
       America. The following information summarizes these differences:

       a. Equity

       Under the terms of the award, all funds not expended according to the award
       agreement and budget at the end of the award period are to be returned to NSF.
       Therefore, the awardee does not maintain any equity in the award and any excess cash
       received from NSF over final expenditures is due back to NSF.

       b. Equipment

       Equipment is charged to expense in the period during which it is purchased instead of
       being recognized as an asset and depreciated over its useful life. As a result, the
       expenses reflected in the statement of award costs include the cost of equipment
       purchased during the period rather than a provision for depreciation.

       The equipment acquired is owned by the University of California, Berkeley while
       used in the program for which it was purchased or in other future authorized
       programs. However, NSF has the reversionary interest in the equipment. Its
       disposition, as well as the ownership of any proceeds there from, is subject to Federal
       regulations.

       c. Inventory

       Minor materials and supplies are charged to expense during the period of purchase.
       As a result, no inventory is recognized for these items in the financial schedules.

       d. Income taxes

       The University of California, Berkeley is a private nonprofit corporation, incorporated
       under the laws of the State of California. The University of California, Berkeley is
       exempt from income taxes under Section 501(c)(3) of the Internal Revenue Code. It
       is also exempt from California income tax.


                                                                                           28
                     UNIVERSITY OF CALIFORNIA, BERKELEY
                  National Science Foundation Award No. EEC-9701568
                               Notes to Financial Schedules
                       From October 1, 1997 to September 30, 2003

2.   NSF cost sharing and matching:

     The following represents the cost sharing requirements and actual cost share from
     October 1, 1997 to September 30, 2003:

                                 Actual Cost
                  Cost Share       Share         Unsupported         Net          Over/
                   Required       Claimed         Cost Share      Cost Share     (Under)

Award No. EEC-
 9701568:
       Year 1     $ 2,000,000    $ 2,204,084        $             $              $
       Year 2       2,000,000      2,095,451
       Year 3       2,000,000      1,972,315
       Year 4       2,000,000      1,934,150
       Year 5       2,000,000      2,138,763
       Year 6       2,000,000      2,093,656

        Total    $ 12,000,000    $ 12,438,419     $ 516,115      $ 11,922,304   ($ 77,696)
                                                     (A)             (A)            (A)

     (A) Cost sharing claimed by the PEER Center was not based on the actual cost sharing
         per the books of account. The total cost sharing was generated by the UCAL,
         Berkeley accounting office. (See Finding Number 2).




                                                                                      29
APPENDIX A – AUDITEE’S COMMENTS TO REPORT




                                            30
UNIVERSITY OF CALIFORNIA, BERKELEY

BBRKELEY DAVIS IRV~PIE LOS ANGELES.   RIYERSIDESAN MFCKI snn FRANCISCO




                                                                          EXTRAMURALPUNIM: ACCOUNTING




       -
                                                                          2195 HEARST STREET.RCOM 130
                                                                          BERKELEY. CA WRO-'!103




       -
                                                                          PAX (510) 643-8997
                                                                          hl~p:lltbs.berkeb~edulM&


       March 28,2005




       M.D. Oppenheim & Company, P.C.
       485 U.S. Highway One, Building C
       P.O. Box 4100
       Iselin, MJ 08830




       We are in receipt of the drafl audit report for the National Science Foundation award number
       EEC-9701568. As requested, we have reviewed the items disclosed in the report. Our
       response follows.

       Flndlnn No. I- Lack of Adequate Fiscal Monltorina of Subcontract Costs

       Recommsndztion No. 1:
       M.D. Oppenheim recommends that NSF Division Directors for the Division of lnstitutlon and
       Award Support (DIAS) and the Division of Grants and Agreements (DGA) require that
       University of California, Berkeley PEER Center personnel establish an adequak system and
       policies and procedures to effectively monitor its subcontractor costs and accurately report
       those eosts to NSF. Specifically, University of California, Berkeley PEER Center personnel
       should:

            w   perform a monthly reconeillation between subcontractor costs reflected in the PEER
                Center Progress Logs and subcontractors costs recorded in the University of C~l'iomia,
                Berkeley accounting System.

            b   Ensure that costs are recorded in the Progress Logs accurately and in the pmper
                reporting time periods.

            c   Budget project costs assigned to University of California, BeFkeley professom in the
                appropriate NSF budget category (i.e. salaries and wages, fringe benefits, rnatedals and
                supplies, equipment, etc.) rather than in the ategory of subcontracts.
M.D. Oppenheim & Company, P,C.
March 28, 2005
Page Two




UC Berkeley Response:
PEER Administration has reviewed the findings and has implemented procedures to address
the tracking and reconciliation between the subeontractor costs recorded in the PEER Progress
Logs and the actual costs recorded in the Berkeley Flnancial System. This reconelliatlon is
prepared monthly by PEER staff afier the prior month's close is completed to ensure that costs
are recorded in the Progress Logs accurately and in the proper reporting time periods,

In reference to Item 'c" above, at the time that the PEER Annual Report is submitted, PEER
Administration has insufficient Information to include a detailed budget by category for those
research projects targeted to be funded to the University of California, Berksley Faculty. The
initial budget in the Annual Report is submitted reflecting projects as Subawards. Once
completed budgets and Information supporting these are available for each of the University of'
California, Berkeley awarded projects, an amended budget is then prepared and sent to NSF
correctly allocating costs In the appropriate categories. As the work is performed, the PEER
Progress Log documents these costs as recorded within the Berkeley Financial System,


Findlne No. 2   - Cost Sharlna Reporting Deficiencies
Recommendation No 2:
NSF's Division Directors of DAIS and DGA should ensure that the PEER Center staff use the
University of California, Berkeley accounting system to record, document and report actual cost
sharing expenses to NSF, The PEER Center staff should institute procedures to utllire the
University of California, Berkeley accounting system information to (a) track and report actual
cost sharing funds received and expended In jts reports to NSF and (b) maintain all written
after-the-fact certifications to support salary and wage costs reported as cost share
appropriately, as required by the appropriate OM8 Circulars and the N S F Grant Policy Manual.

UC Bsrkeky Response:
PEER Administration works in conjunction with Extramural Funds Amounting staff to track and
produce cost share reports based on the Berkeley Financial System. The process is to use the
Berkeley Financial System and the cost sharing tracking maintained on subsidiary records in
the PEER Center. This is reviewed regularly and reported as a part of the PEER Annual Report
to NSF. The difference of $277,488 identifled by the audltars was due to a timing difference
between the actual transaction dates recorded In the general ledger and the dates the
transactions were included in the original report. Thts report has subsequently been corrected
to show the correct accounting period for these transactions. The cost share information now
provided to NSF from the Berkeley Financial System is correet for the period October 1, 1987 to
September 30, 2004.

In reference to the $238,627 identified in the audit as unsupported cast sham, University of
California, Berkeley disagrees with the auditors' statement. PEER administration did provide
time reports for tho five individuals identified by the auditors that were authorized and certlfled.
We believe that these satisfy after-the-fact time reporting and certiflcatkn of effort.
M.D. Oppenheim & Company, P.C.
March 28, 2005
Page Three




As referenced by the auditors OM0 Circular A-21, Section C.8.b states that all costs should be
supported by cost allocation plans in accordance with applicable Federal cost accounting
standards. The PEER Center maintains a cost allocation plan and, as mentioned in our
response to Finding No. 1 above, PEER Center personnel refemnoe this plan and ensure that
costs are applied to the appropriate budget categories.

Also referenced by the auditors, OM6 Circular A-1 10, Subpart C,Section .23 prescribes the
criteria and procedures for the allowability of cash contributions in satisfying cost sharing and
matching requirements. The NSF Grant Pollcy Manual, Section 333.5 requires cost sharing
records be maintained for all project costs which are claimed as being the contribution to cost
participation. University of Callfornla, Berkeley and PEER Center personnel believe that we
have met these requirements end that we do maintain records of cost sharing contributions.

The timecards mentioned akove were not accepted by the auditors even though they were
actual time recorded by the flue Individuals. It is the University's belief that we are in
compliance with A-21 J.8 subsection b.(2) which indicates that the "payroll distribution system
will (i) be incorporated Into the official records of the institution, (ii) reasonably reflect the activity
for which the employee is compensated by the institution..." The timesheets provided identified
the time worked on the PEER project. The auditors contend the time was not specific to the
task level, while we maintain it was not a requirement to delineate to that degree.


                -
Ftndinsr No. 3 Inadeswte Travel Documentation and Utilization of Non4.S. Flag
Carriers

Recommendation No. 3:
NSF's Division Directors of DlAS and DGA should ensure that the PEER Center staff institute
procedures to ensure that adequate documentation is maintained to support travel costs
clalmed on NSF awards and that US Flag alr carrlers are used in accordance with the NSF
GPM.

UC Berkeley Response:
The Unlverslty accounting staff has located 4 of the 8 identified missing travel documents.
They are included with this response.

J h e remaining transactions were all incurred prior to June 2000.The documentation for these
transactions could not easily be located due to the method in which these         m
transactions were processed through the campus' legacy financial system. The ledger entry did
not provide sufficient information for the University to easily locate the archlved supporting
documentation without further extensive effort. The legacy financial system was replaced mid-
2000 and the new Berkeley Financial System allows us to more easlly locate archived
supporting documentation for travel costs.

In reference to findings regarding the nan-US Flag alr carriers, per NSF's Grant Policy Manual,
Section 761.2 requiring prior approval under certain circumstances to use non-US Flag carriers,
the University ofCalifornia, Berkeley and the PEER Center are unable to locate any
M.D. Oppenheim & Company, P.C.
March 28,2005
Page Four




documentation that this request was made. As we are not able to justify the expenditure, we
agree that the $2,000charge should be disallowed and we have subsequently reversed these
charges from the ledger

Thank you for the opportunity to answer the findings identified by your auditors. If:you have any
questions related to the response above, please don't hedtate to contact me at.-
        HOW TO CONTACT
THE OFFICE OF INSPECTOR GENERAL

     Internet
     www.nsf.gov/oig

     Email Hotline
     oig@nsf.gov

     Telephone
     703-292-7100

     Toll-Free Anonymous Hotline
     1-800-428-2189

     Fax
     703-292-9158

     Mail
     Office of Inspector General
     National Science Foundation
     4201 Wilson Blvd., Suite 1135
     Arlington, VA 22230




                                     35
